No.
IN THE
SUPREME COURT OE THE \MTEb 5TKTES
CHARLES MEMQM VANDRbSS

PETITIONER
VS

ItiE UNITED STATES COURT OE RPEEAlS
FOR THE FOURTH CIRCUIT
RESPONDENT

APPENDIX

fK

FILED: May 26, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6916
(1:17-cv-02484-RMG)

CHARLES NEMON VANDROSS
Petitioner - Appellant
v.
BRYAN STIRLING, Commissioner, South Carolina Department of Corrections,
and Broad River Correctional Institution
Respondent - Appellee

ORDER

The court grants counsel's motion to withdraw from further representation
and denies appellant’s motion to appoint counsel.
Entered at the direction of the panel: Judge Niemeyer, Judge Motz, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

APPENDIX

A

Ho.
f/M THE
SUPREME

COURT DF THE UNITED STATES

CHARLES NEHDN YAKDROSS

PETITIONER

V5
THE UNITED STATES COURT DF APPEALS
FDR THE FOURTH CIRCUIT
RESPONDENT
APPENDIX

B

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 1 of 20

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-6916
CHARLES NEMON VANDROSS,
Petitioner - Appellant,
v.

BRYAN STIRLING, Commissioner, South Carolina Department of Corrections,
and Broad River Correctional Institution,
Respondent - Appellee.
Appeal from the United States District Court for the District of South Carolina, at Aiken.
Richard Mark Gergel, District Judge. (1:17-cv-02484-RMG)
Argued: October 28, 2020

Decided: January 26, 2021

Before NIEMEYER, MOTZ, and RICHARDSON, Circuit Judges.

Affirmed by published opinion. Judge Niemeyer wrote the opinion, in which Judge Motz
and Judge Richardson joined.

ARGUED: E. Charles Grose, Jr., GROSE LAW FIRM, LLC, Greenwood, South
Carolina, for Appellant. Michael Douglas Ross, OFFICE OF THE ATTORNEY
GENERAL OF. SOUTH CAROLINA, Columbia, South Carolina, for Appellee. ON
BRIEF: Elizabeth A. Franklin-Best, BLUME FRANKLIN-BEST & YOUNG, LLC,
Columbia, South Carolina, for Appellant. Alan Wilson, Attorney General, Donald J.
Zelenka, Deputy Attorney General, Melody J. Brown, Senior Assistant Deputy Attorney
General, J. Anthony Mabry, Assistant Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF SOUTH CAROLINA, Columbia, South Carolina, for Appellee.

APPENDIX

&B

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 2 of 20

NIEMEYER, Circuit Judge:
In his application for a writ of habeas corpus filed under 28 U.S.C. § 2254, Charles
Vandross — who was convicted in a South Carolina state court for murder, burglary,
kidnapping, and related crimes — claimed that his trial counsel’s performance was
constitutionally deficient under the standard established in Strickland v. Washington, 466
U.S. 668 (1984). He noted that his trial counsel failed to call any forensic experts to testify
on his behalf and asserted that such failure was not a strategic decision but was made out
of counsel’s ignorance of the availability of funding to pay experts. He asserted further
that his post-conviction counsel’s performance was also constitutionally deficient in failing
to demonstrate that his trial counsel’s deficiency was prejudicial. The district court granted
summary judgment to the State because Vandross failed to show prejudice not only in the
state post-conviction court but also in the district court.
We granted a certificate of appealability on the ineffective-assistance issue and now
affirm. Even though the district court did not restrict its review by considering only the
state court record, as required in the circumstances, but instead considered an affidavit of
a forensic expert that Vandross presented for the first time in the district court, we
nonetheless agree with the district court’s conclusion that the expert failed to show
prejudice with evidence or a proffer of evidence “of what a defensive forensic expert would
have testified to and how that could have altered the trial.” The forensic expert only
identified investigatory issues that he or another forensic expert could have explored and
did not test or challenge any evidence actually presented to the jury so as to support a

2

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg:3of20

conclusion that testimony from him or another forensic expert could have made a
difference.

I
The proof against Vandross at his state trial in Greenwood County, South Carolina,
consisted mostly of the testimony of his former girlfriend, JoAnn Suber Wilson, and
forensic evidence that corroborated some of her testimony. Generally, Wilson testified that
following an argument with Vandross, Vandross broke into her house, murdered the man
whom Wilson was then with, and then kidnapped her at gunpoint.
More particularly, Wilson testified that after she and Vandross began dating in July
2003, Vandross moved into her house, and the two lived together on and off for the next
12 to 14 months. Eventually, though, he moved into his own apartment nearby, but he kept
a key to Wilson’s house. He also gave Wilson a key to his apartment. After an argument
on October 31,2004, Wilson asked Vandross to leave her house, and he did so, but he kept
her key. Because she became scared of Vandross, she asked a prior boyfriend, Sanford
Best, to stay with her in her house, and he agreed. The next day, on November 1, Vandross
went to Wilson’s workplace, and the two exchanged keys. Two days later, on November
3, Wilson received a call from a friend that prompted her that same day to seek a restraining
order against Vandross. She received a no-trespassing notice. Later that day, when she
and Best were watching her son’s ball game, she saw Vandross, and he just “stare[d]” at
them.

3

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 4 of 20

During that night, after Wilson and Best had gone to sleep in the same bed, Wilson
was awakened by Vandross’s hand over her mouth and a gun pointed to her head. Vandross
warned her that she “better not scream.” As Wilson resisted, a tussle resulted, and
Vandross threw Wilson violently to the floor, bruising her and causing bleeding from her
nose and mouth. She stopped resisting only after Vandross threatened to “include [her]
children in it.” When Vandross let Wilson use the bathroom after she had pleaded with
him that she really needed to go, she took some of the blood from her wounds and attempted
to write Vandross’s name on the bathroom wall. She explained that she did so because she
believed that Vandross was going to kill her. Vandross then threw her some of her clothes
to get dressed and a roll of duct tape that he had brought with him, instructing her to put
the tape over her mouth. While she did so, she spit on the tape so that it would be loose
and could be removed more easily. She also left pieces of tape in the bathroom as “clues.”
When Vandross saw Wilson through the open door spitting on the tape, he wrapped the
tape around her head “all the way down to [her] neck.” She could barely breathe, as only
one nostril was left open. Vandross then pushed Wilson back through the bedroom into
the living room, and as they passed through the bedroom, Wilson testified that “out of the
corner of [her] eye,” she saw Best on the bed “with a pillow over his head.” Vandross
grabbed Wilson’s car keys, led her through the back door, and put her into the driver’s seat
of her car, while taking the passenger seat. He then instructed Wilson to drive, even though
she was complaining about her restricted ability to do so with the duct tape wrapped about
her face.

4

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg:5of20

Following Vandross’s instructions, Wilson pulled the car into a church parking lot.
But when they saw the lights on in two nearby houses, one of which was a parsonage,
Vandross told Wilson, at gunpoint, to drive to a second church. After entering its parking
lot, she attempted to run the car into a silver tank, but Vandross hit the brake and stopped
the car. He grabbed the keys, put the car in park, and ripped the duct tape off of Wilson as
he started “ranting and raving” about prior arguments during their relationship. It was now
about 3:00 a.m. on November 4.

Vandross related details of their past, expressed

jealousies, and stated that he loved her but she didn’t love him.

He continued his

monologue, stating, “My life is ruined, I’ve killed a man.” When Wilson insisted that she
did love him and recalled how he had said that their “hugs [were] special,” she invited a
hug from Vandross. He then pulled Wilson out of the car, hugged her, and started to quote
scripture; She nonetheless started praying, believing still that he was about to kill her. As
Vandross’s temperament thus flipped, he told Wilson that he would never hurt her. He
“pulled the clip out of the gun,” put it in his pocket, and said, “Let’s get back in the car.”
Observing that it was “5:50” and “time for the kids to get up,” he stated that he would take
her back to the house if she promised to do certain things, including taking the children
outside in time for the school bus and not telling the police. During this discourse, he
observed that he expected to be sentenced to only “eight to ten years for this” because it
was his “first offense.” When Wilson suggested that they call the police because Best
might not be dead, Vandross replied, “Trust me, he’s dead.”
Wilson drove them back to her house, and while still parked, he instructed her to
take off her outer shirt, combed her hair with his fingers, and cleaned some of the blood
5

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg:6of20

off of her face with saliva, as one would do for a child. Wilson then went inside, woke up
her sons, and got them dressed. But while inside, she also called the police. She then took
her boys out front to wait for the bus. Once she heard sirens, however, she and the boys
ran to meet the police.
Officer Chris Hammett testified that he found Vandross standing on Wilson’s back
porch. Following Hammett’s command, Vandross handed over the unloaded gun, and the
officer found the clip in Vandross’s pants pocket. Officer James Boggs testified that, inside
the house, the bedroom TV was “very loud” and that Best was lying dead on the bed with
a gunshot wound to his head. Wilson testified at trial that she had never heard the gunshot.
To corroborate Wilson’s testimony, the State presented forensic evidence analyzing
evidence collected from the scene by an evidence technician.
The technician collected a gun residue kit from Vandross, and the subsequent test
indicated that lead particles were on Vandross’s shirt but that there was no detectable
amount of the other two chemicals necessary to classify those particles as gunshot residue.
No tests were conducted for gun residue on Wilson.
The State also conducted a series of DNA tests. A test of the gun recovered from
Vandross did not reveal any DNA on the gun. Pieces of duct tape from Wilson’s car had
Wilson’s DNA on them but not any blood or DNA from Vandross. Similarly, a test of the
duct tape roll revealed Wilson’s DNA on it but not Vandross’s. Samples of blood taken
from the bathroom belonged to Wilson. A test of Vandross’s pants had Wilson’s DNA on
them.

6

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg:7of20

A white shirt was recovered from the floor of Wilson’s car, which had red or brown
stains on it, as well as a smudge that could have been a handprint. While the technician
testified that he did not know if the shirt had been submitted to testing, a DNA analyst
testified that a test of the shirt found blood belonging to Best.
The technician found a stocking cap on the back porch of Wilson’s house, but it was
never tested. He did not attempt to collect any fiber, hair, or fingerprint evidence in the
house because Vandross was known to have been a recent resident.
A firearms expert testified that the gun recovered from Vandross was the same gun
that fired the bullet that killed Best, and the technician collected a shell casing from the
floor next to the bed.
A forensic pathologist analyzed Best’s gunshot wound and testified that the abraded
skin around the hole indicated that the gun was against the skin when fired. He stated
further that the gun taken from Vandross was consistent with the wound. Finally, he
testified that based on his own experience of firing pistols, it “would not be unusual” for
someone in the same room not to hear a gunshot when it is fired directly against the skin.
During closing argument at trial, Vandross’s attorney highlighted the gaps in the
forensic evidence, pointing out that testing did not identify any of Best’s DNA on
Vandross’s hands, clothing, or gun. He similarly highlighted the absence of Vandross’s
DNA on the duct tape. Finally, he argued that the shell casing’s location was not consistent
with where Vandross would have stood to shoot Best.
Following the jury’s guilty verdict, Vandross appealed, and the South Carolina
Court of Appeals affirmed his conviction. Vandross then applied to the Greenwood County
7

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg:8of20

Court for post-conviction relief (“PCR”), claiming, among other things, the ineffective
assistance of his trial counsel in failing “to hire and interview or call to testify experts,”
listing experts in eight distinct disciplines. He contended that his counsel’s ineffective
assistance violated his rights under the Sixth Amendment, citing Strickland v. Washington,
466 U.S. 668 (1984). At the PCR hearing, Vandross’s trial counsel testified that he did not
hire any experts to testify at trial or advise him because, even though he “thought it would
be very beneficial to us,” he did not have the funds to do so and, he added, neither did
Vandross. Vandross did not present any expert testimony at the PCR hearing to support
his claim of prejudice resulting from this alleged ineffective assistance of counsel at trial
because, as he testified, “we probably would have to pay for that” and “we could not
guarantee what we would find.”
The state PCR court denied Vandross’s PCR application on the merits, explaining,
as to trial counsel’s failure to call any expert witnesses:
Counsel testified he wanted to retain experts in this case, but Applicant had
no funds with which to hire these experts. Counsel also testified he used the
prior trial transcripts to fully cross-examine the witnesses, especially Wilson.
Prejudice from trial counsel’s failure to call witnesses cannot be shown
where the witnesses do not testify at post-conviction relief. An Applicant
must produce the testimony of a favorable witness or otherwise offer the
testimony in accordance with the rules of evidence at the PCR hearing in
order to establish prejudice from the witness’ failure to testify at trial.
Applicant produced no such testimony of any expert witnesses at the PCR
hearing, and therefore cannot show any resulting prejudice.
(Citations omitted).
On July 24, 2017, the Supreme Court of South Carolina denied Vandross’s petition
for a writ of certiorari to review the PCR court’s ruling.

8

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 9 of 20

Vandross then filed this § 2254 application in the district court on September 15,
2017, making several claims, including that he received the ineffective assistance of
counsel at trial “when trial counsel failed to obtain funding for expert witnesses.”
Amplifying that claim in his application, he stated:
Petitioner’s trial counsel never consulted or secured any experts for either of
Petitioner’s murder trials because he did not know that he could secure
funding for them. Given the State’s heavy reliance on forensic testimony,
and the two prior [trials based on hung juries], counsel’s performance was
objectively both deficient and prejudicial.
Vandross asserted that his trial counsel did not make a strategic choice about the need for
experts; indeed, his trial counsel conceded, when testifying at the PCR hearing, that experts
would have been “very beneficial” to Vandross. Vandross argued further that the district
court should not deny his application on the basis of the state’s PCR ruling because his
counsel in that proceeding was also ineffective. He maintained that “the procedural
default” in failing to show prejudice at his state PCR hearing should be excused because
state PCR counsel was ineffective in failing to hire experts to show prejudice, relying on
Martinez v. Ryan, 566 U.S. 1, 17 (2012) (holding that, in limited circumstances, cause to
excuse procedural default might be established by ineffective counsel in state collateral
proceedings).
The district court approved funding for Vandross to retain a forensic expert to
support his § 2254 application, and Vandross retained Dr. Rodger Morrison. Dr. Morrison
submitted a two-page affidavit, which identified 14 investigatory issues that a forensic
expert could have addressed at trial. He did not, however, test any evidence, concluding

9

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 10 of 20

only that if trial counsel had retained a forensic expert, “it would have undermined the
integrity of the State’s case against Mr. Vandross.”
By order dated July 20, 2018, the district court granted the State’s motion for
summary judgment. It agreed with the state PCR court that Vandross failed to establish
prejudice from his trial counsel’s alleged ineffective assistance because he offered no
expert testimony at the PCR hearing to support his claim. The court concluded further that
Dr. Morrison’s affidavit did not demonstrate prejudice because it “fail[ed] to offer any
substantive testimony that would have served to challenge the evidence offered by the
state” at trial.
Vandross filed this appeal from the district court’s order, and on February 4, 2019,
we granted a certificate of appealability as to his claim of ineffective assistance of trial
counsel for failing to retain experts and present expert testimony at trial.

II
In his § 2254 application, Vandross claims that he received the ineffective assistance
of counsel at trial “when trial counsel failed to obtain funding for expert witnesses.” He
maintains that his counsel did not make a strategic choice about the need for experts;
indeed, his counsel conceded that he believed experts would have been “very beneficial”
to Vandross. His counsel explained that he did not retain experts because neither he nor
Vandross could afford to pay for them. Counsel was apparently unaware of a South
Carolina statute that provides funding to indigent defendants for exactly this purpose. See
S.C. Code Ann. § 17-3-50(B) (authorizing up to “five hundred dollars” to pay for
10

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 11 of 20

investigation and experts to assist certain indigent defendants). Vandross asserts that such
an elementary mistake of law constitutes deficient performance. See Hinton v. Alabama,
571 U.S. 263,273 (2014) (per curiam) (finding deficient performance where trial counsel’s
failure to seek additional funds for an expert witness “was based not on any strategic choice
but on a mistaken belief that available funding was capped”). He also asserts that this
deficiency prejudiced him at trial because experts could have testified about evidentiary
holes in the State’s case, which could have altered the ultimate outcome.
But this is the same claim that Vandross presented to the state PCR court and that
the state court resolved on the merits. Vandross claimed in his state PCR application that
he received the ineffective assistance because his counsel failed “to hire and interview or
call to testify experts” in numerous distinct disciplinary areas to counter the State’s
evidence, including an “expert on guns,” a “doctor or blood expert,” a “handprint expert,”
a “clothing expert,” and a “psychiatrist.” And he claimed that he “was prejudiced by
counsel’s failure.” Finally, he argued that “in every instance of ineffective assistance of
counsel heretofore described... his United States Constitutional rights were violated. The
Sixth Amendment guarantees the right to effective assistance of counsel in criminal
prosecutions,” citing Strickland.
The PCR court considered Vandross’s claim on the merits, reciting each expert
requested and the reasons why that expert was claimed to be relevant. But it also noted
that “none of these ‘experts’ were present to testify on his behalf at the PCR hearing” to
“show any resulting prejudice.” In denying relief, the PCR court applied federal law,
noting that it required Vandross to show (1) that his “counsel’s performance was deficient,”
11

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 12 of 20

and (2) that his “counsel’s deficient performance .. . prejudiced Applicant such that ‘there
is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different,’” quoting Cherry v. State, 386 S.E. 2d 624, 625
(S.C. 1989) (quoting Strickland, 466 U.S. at 694). In concluding that Vandross failed to
meet his burden, the court held, among other things, that Vandross failed to prove the
prejudice prong of Strickland, stating:
Prejudice from trial counsel’s failure to call witnesses cannot be shown
where the witnesses do not testify at post-conviction relief. Underwood v.
State, 309 S.C. 560, 425 S.E.2d 20 (1992); Bassett v. Thompson, 915 F.2d
932 (4th Cir. 1990), cert, denied, 499 U.S. 982 (1991). An Applicant must
produce the testimony of a favorable witness or otherwise offer the testimony
in accordance with the rules of evidence at the PCR hearing in order to
establish prejudice from the witness’ failure to testify at trial. Bannister v.
State, 333 S.C. 298, 509 S.E.2d 807 (1998). Applicant produced no such
testimony of any expert witnesses at the PCR hearing, and therefore cannot
show any resulting prejudice.
In short, the state PCR court decided on the merits the very same claim that Vandross set
forth in his § 2254 application.
While § 2254 authorizes federal courts to “entertain” an application for a writ of
habeas corpus from a person in state custody “in violation of the Constitution or laws or
treaties of the United States,” 28 U.S.C. § 2254(a), it provides nonetheless that such a
habeas writ may not be granted “with respect to any claim that was adjudicated on the
merits in state court proceedings,” subject to three exceptions: (1) a showing that the state
court decision “was contrary to” federal law; (2) a showing that the state court decision
“involved an unreasonable application of’ federal law; or (3) the state court decision “was
based on an unreasonable determination of the facts” in light of the record before the state
12

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 13 of 20

court, id. § 2254(d) (emphasis added); Harrington v. Richter, 562 U.S. 86, 100 (2011).
Therefore, because the state PCR court adjudicated Vandross’s ineffective-assistance claim
on the merits, Vandross must, to obtain federal review of that claim, show one of the three
exceptions to the § 2254(d) bar — specifically, as applicable here, that the state PCR
decision “involved an unreasonable application of’ federal law. This he has not attempted
to do, nor could he.
The state PCR court correctly recited the requirements of Strickland and correctly
applied those requirements to the facts in the record. In doing so, it also concluded
correctly that no evidence was presented or offered to show prejudice in that any of the
forensic evidence presented by the State at trial was flawed. While Vandross did point out
various gaps in the State’s evidence, he highlighted those gaps to the jury. Moreover, he
did not offer or present any evidence to the state PCR court that would have filled the gaps
such that it would show a reasonable probability of a change in the result. Simply,
Vandross has not shown that the PCR court’s decision was an unreasonable application of
Strickland as is necessary to show an exception to the § 2254(d) bar to review a state PCR
decision resolving a claim on the merits.

Ill
Rather than attempting to demonstrate that the PCR court’s decision was an
unreasonable application of federal law, Vandross argues that his failure to show prejudice
at the state PCR hearing was the result of the ineffective assistance of counsel at that
hearing. Like his trial counsel, his state PCR counsel failed to present any expert testimony,
13

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 14 of 20

this time as needed to show prejudice from his trial counsel’s failure to do so. Because of
that deficiency, Vandross argues, he should be excused from demonstrating that the PCR
court unreasonably applied federal law, and he requests instead that the federal court
perform collateral review of the issue. In making his argument, he recognizes the general
rule that because he was not constitutionally entitled to counsel during his state post­
conviction proceedings, he “cannot claim constitutionally ineffective assistance of counsel
in such proceedings.” Coleman v. Thompson, 501 U.S. 722, 752 (1991). He instead seeks
to justify federal review by calling his counsel’s deficiency in the state PCR proceeding a
procedural default that justifies application of the narrow exception provided by Martinez
v. Ryan, 566 U.S. 1 (2012). In Martinez, the Court held that a federal court may review a
procedurally defaulted ineffective-assistance claim when (1) the state PCR court is the first
occasion for raising the claim, (2) the petitioner’s counsel provided ineffective assistance
in the PCR court, and (3) it is likely that no state court will hear the prisoner’s claim. Id.
at 18. To support federal review justified by the Martinez exception, Vandross requested
funding from the district court to retain an expert for the federal proceeding — a request
the court granted — and then presented the affidavit of Dr. Morrison to show prejudice
resulting from his trial counsel’s deficiency. The district court considered the affidavit
over the objection of the State in resolving Vandross’s § 2254 application.
Vandross’s argument to excuse his failure to show prejudice at the state PCR
hearing raises two issues. Can Vandross supplement the state court record in the federal
court on the ground that his state PCR counsel was deficient, relying on Martinez? And

14

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 15 of 20

does the record, even when so supplemented, sufficiently support a showing of prejudice?
We address these in order.

A
As a general rule, our review under § 2254(d) “is limited to the record that was
before the state court that adjudicated the claim on the merits.” Cullen v. Pinholster, 563
U.S. 170, 181 (2011); see also Moore v. Stirling, 952 F.3d 174, 181 (4th Cir. 2020). This
rule flows directly from the text of § 2254, which “focuses on what a state court knew and
did.” Pinholster, 563 U.S. at 182.
Vandross nonetheless insists that Dr. Morrison’s affidavit may be considered
because his failure to present evidence of prejudice at his state PCR hearing was itself the
product of the ineffective assistance of his state PCR counsel. In making this argument, he
seeks to apply cases involving the doctrine of procedural default, analogizing his PCR
counsel’s failure to a default. Normally, if an applicant does not present a claim to a state
court and that court does not have an opportunity to consider it, review by a federal court
is barred because the claim is procedurally defaulted. See Coleman, 501 U.S. at 731-32.
But, as Vandross correctly argues, the Supreme Court has recognized a “narrow exception”
to that rule in Martinez, 566 U.S. at 9. As the Martinez Court stated, a federal court may
review a “substantial” ineffective assistance of counsel claim, notwithstanding procedural
default, when state law required that the claim be raised in the state “initial-review
collateral proceeding” and, in that initial proceeding, “there was no counsel or counsel in

15

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 16 of 20

that proceeding was ineffective.” 566 U.S. at 17; see also Trevino v. Thaler, 569 U.S. 413,
423 (2013) (identifying the four elements necessary to apply the Martinez exception).
In effect, Vandross requests that we carry the Martinez exception to procedural
default over to this case to provide an exception to the distinct rule that our review under
§ 2254 “is limited to the record that was before the state court.” Pinholster, 563 U.S. at
181. This request, however, is foreclosed.
We have already held on more than one occasion that Martinez, which authorizes a
federal court to consider a new claim that was procedurally defaulted, does not provide a
similar exception for new evidence supporting a claim that was in fact presented in state
court. See, e.g., Gray v. Zook, 806 F.3d 783, 789 (4th Cir. 2015) (“[I]f claims are not
procedurally defaulted — that is, they were properly presented to the state court — then
Martinez does not apply”). Other courts of appeals have uniformly reached the same
conclusion. See, e.g., Escamilla v. Stephens, 749 F.3d 380, 395 (5th Cir. 2014) (“[0]nce a
claim is considered and denied on the merits by the state habeas court, Martinez is
inapplicable, and may not function as an exception to Pinholster's rule that bars a federal
habeas court from considering evidence not presented to the state habeas court”); Moore v.
Mitchell, 708 F.3d 760, 785 (6th Cir. 2013) (“[Applicant] is not asking that we afford a
Martinez-like review of a procedurally defaulted claim, but rather that we turn Martinez
into a route to circumvent Pinholster”); Floyd v. Filson, 949 F.3d 1128, 1147^18 (9th Cir.
2020) (same).
In Gray, we held that, just like here, a federal court deciding a § 2254 claim may
not consider an expert affidavit submitted to the district court after the applicant failed
16

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 17 of 20

previously to submit such evidence to the state court in order to prove that trial counsel’s
failure to call expert witnesses prejudiced the applicant’s trial. Gray, 806 F.3d at 798-99.
That rule, though, applies only when the federal habeas claim is “fundamentally the same”
as the claim presented to the state court. Moore, 952 F.3d at 182. By contrast, in limited
circumstances, “new evidence [can] ‘fundamentally alter’ the ‘substance’ of the claim so
as to make the claim a new one” that was not presented to the state court. Id. at 182-83
(cleaned up) (quoting Vasquez v. Hillery, 474 U.S. 254, 260 (1986)). But that does not
occur where the new evidence does not “change the heart of the claim” but instead “merely
strengthens the evidence presented in the state PCR hearing.” Id. at 184; see also Gray,
806 F.3d at 799 (recognizing “that a petitioner may not support a claim in state court with
mere conjecture and subsequently provide the necessary evidentiary support for the claim
on federal habeas review”).
In this case, Vandross did not procedurally default his ineffective-assistance claim
before the state PCR court. Rather, he attempted to present it fully, arguing both his
counsel’s deficiency and resulting prejudice. He simply sought, in the federal court, to
supplement the evidence in support of that claim in order to better show prejudice. Thus,
while Dr. Morrison’s affidavit might have strengthened Vandross’s ineffective-assistance
claim, it did not “fundamentally alter” it. Gray, 806 F.3d at 799.
Accordingly, our review is limited to the state PCR court’s record, and the district
court’s consideration of Dr. Morrison’s affidavit was error. On that record, Vandross’s
§ 2254 application must be denied, as shown above. Nonetheless, the district court’s

17

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 18 of 20

conclusions about the substance of Dr. Morrison’s affidavit were completely valid, and we
affirm on that basis also.

B
Vandross relies almost exclusively on Dr. Morrison’s affidavit to establish in federal
court that his trial counsel’s deficient performance resulted in prejudice. He argues that it
shows that his trial counsel never subjected Wilson’s account “to scientific scrutiny” and
that there is a reasonable probability that doing so would have resulted in a different
outcome.
In his affidavit, Dr. Morrison states that “either I, or another forensic investigator,
could have assisted trial counsel in challenging the forensic evidence in this case. In my
opinion, law enforcement did not undertake a very thorough investigation, and I (or another
forensic investigator) could have assisted trial counsel in bringing] this to the jury’s
attention.” (Emphasis added). He then lists 14 distinct issues that could have been
challenged at trial or could have been investigated further. He concludes, “Had trial
counsel or PCR retained counsel [retained me or another forensic investigator] for purposes
of challenging the forensic science testimony and the lack of physical evidence in this case,
I believe it would have undermined the integrity of the State’s case against Mr. Vandross.”
Remarkably, Dr. Morrison did not himself test, or have some other expert test, any
of the relevant evidence. He did not even use his expertise to speculate as to what such
testing would have found. Instead, he simply put forth a menu of options that a forensic
expert could have explored in greater depth. Yet, from the substance of Dr. Morrison’s
18

USCA4 Appeal: 18-6916

Doe: 74

Filed: 01/26/2021

Pg: 19 of 20

affidavit, Vandross reasons that if an expert had so explored the list of options, the expert
would have uncovered some form of evidence that may well have altered the jury’s verdict.
But he has pointed to nothing specific.
More is required. When a petitioner’s ineffective assistance of counsel claim rests
on trial counsel’s failure to call particular witnesses, expert or otherwise, we require “a
specific proffer ... as to what an expert witness would have testified.” Goins v. Warden,
Perry Corr. Inst., 576 F. App’x 167,173 (4th Cir. 2014) (per curiam). Apetitioner’s failure
to do so “reduces any claim of prejudice to mere speculation and is fatal to his claim.” Id.
(emphasis added); see also Bassette v. Thompson, 915 F.2d 932, 940 (4th Cir. 1990) (“The
great failing of the appellant on his claim that other evidence should have been presented
during the sentencing phase of his trial is the absence of a proffer of testimony from a
witness or witnesses he claims his attorney should have called”); Beaver v. Thompson, 93
F.3d 1186, 1195 (4th Cir. 1996) (“[A]n allegation of inadequate investigation does not
warrant habeas relief absent a proffer of what favorable evidence or testimony would have
been produced”).
The South Carolina courts require the same. See Bannister v. State, 509 S.E.2d 807,
809 (S.C. 1998) (“This Court has repeatedly held a PCR applicant must produce the
testimony of a favorable witness or otherwise offer the testimony in accordance with the
rules of evidence at the PCR hearing in order to establish prejudice from the witness’ failure
to testify at trial”); Porter v. State, 629 S.E.2d 353, 358 (S.C. 2006), abrogated on other
grounds by Smalls v. State, 810 S.E.2d 836 (S.C. 2018) (“Mere speculation of what a
witness’ testimony may be is insufficient to satisfy the burden of showing prejudice in a
19

USCA4 Appeal: 18-6916

Doc: 74

Filed: 01/26/2021

Pg: 20 of 20

petition for PCR”); Clark v. State, 434 S.E.2d 266, 267 (S.C. 1993) (“[P]ure conjecture”
about how an expert witness would testify is not sufficient “to establish the result would
probably change if a new trial is had”).
Without proffering any evidence of what an expert would have concluded, Dr.
Morrison’s affidavit suffers from what these cases describe as mere speculation. The
affidavit identifies only where a forensic expert could have looked for exculpatory
evidence, but it failed to present that exculpatory evidence — or even proof that it exists
— to establish prejudice. In short, Dr. Morrison’s affidavit, even if properly considered,
would not have helped Vandross’s claim, as the district court concluded.

We conclude that Vandross has failed to establish that the state PCR court’s decision
involved an unreasonable application of federal law when it concluded that Vandross failed
to prove the requisite prejudice for his ineffective assistance of counsel claim and therefore
that the district court did not err in denying his § 2254 application.
AFFIRMED

20

No.
IN
SUPREME

COURT

THE

OF THE

UNITED STATES

CHARLES NEKION MNDRDSS

PETITIONER

\I5
THE UNITED STATES COURT OF APPEALS
EG ft THE FOURTH CIRCUIT
RESPONDENT
APPENDIX

C

p

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 1 of 33

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Charles Nemon Vandross,

)

Petitioner,
vs.

Bryan Stirling, Commissioner,
South Carolina Department of
Corrections, and Broad River
Correctional Institution,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

C/A No.: l:l7-2484-RMG-SVH

REPORT AND
RECOMMENDATION

Charles Nemon Vandross (“Petitioner”) is an inmate at the Perry
Correctional Institution of the South Carolina Department of Corrections who
filed this counseled petition for a writ of habeas corpus pursuant to 28 U.S.C. §
2254. This matter is before the court pursuant to 28 U.S.C. § 636(b) and Local
Civ. Rule 73.02(B)(2)(c) (D.S.C.) for a Report and Recommendation on
Respondent’s return and motion for summary judgment. [ECF Nos. 18, 19].
After obtaining an extension [ECF No. 21], Petitioner filed a response on
March 15, 2018, and Respondent filed a reply on March 21, 2018. [ECF Nos.
22, 23].
Having carefully considered the parties’ submissions and the record in
this case, the undersigned recommends the court grant Respondent’s motion
for summary judgment. [ECF No. 19].

APPEMDIX

C

l:17-cv-02484-RMG

I.

Date Filed 06/20/18

Entry Number 26

Page 2 of 33

Factual Background
JoAnn Suber Wilson (“Wilson”) and Petitioner began dating in July,

moved in together in August, and were engaged in November 2003. [ECF No.
18-1 at 96-97, 100]. At trial, Wilson testified as follows.
Wilson and Petitioner dated for approximately 14 months, although they
separated a number of times during this time period. Id. at 105. On the
morning of October 31, 2004, Wilson ended the relationship, and she asked
Petitioner to leave the house and to return her house key. Id. at 109. Petitioner
left, but did not return Wilson’s key. Id. The same afternoon, Wilson invited
her former boyfriend Sanford Best (“Best”) to spend the night. Id. at 108, 110—
11. On November 1, 2004, Petitioner returned Wilson’s house key. Id. at 112.
Two days later, Wilson received a phone call from a friend, and in response to
the call, she attempted to secure a restraining order or no trespass notice
against Petitioner. Id. at 113. She received a no trespass notice. Id.
Later that evening, Wilson invited Best to accompany her to her son’s
football game. Id. at 114-15. Petitioner was also at the game, and although he
reportedly stared at Wilson and Best, he did not speak to them. Id. at 116.
After the game, Wilson and Best returned to Wilson’s house and fell asleep. Id.
at 126, 129. Wilson awoke around midnight to Petitioner’s hand over her
mouth and a gun to her head. Id. at 129, 146. Wilson testified that she and
Petitioner “tussled,” and he picked her up and threw her on the floor. Id. at
2

l:17-cv-02484-RMG

129-30.

Date Filed 06/20/18

Entry Number 26

Page 3 of 33

Petitioner then threatened to harm Wilson’s children, and she

stopped fighting him and asked to use the bathroom. Id. at 130. Petitioner
pushed Wilson into the bathroom, where she used the blood from injuries to
her mouth and nose to try and write, “Charles V, help me” on a “half wall” in
the bathroom. Id. at 131-32. Petitioner threw Wilson some clothes into the
bathroom and returned to the bedroom.

Id. at 134—35. As Wilson was getting

dressed, Petitioner provided her duct tape and directed her to tape her mouth.
Id. at 135.

After Petitioner caught Wilson spitting on the duct tape, he

wrapped the tape around Wilson’s head. Id. at 137-38. Wilson and Petitioner
left the bathroom, walked through the bedroom into the living room, where
Petitioner retrieved Wilson’s car keys. Id. at 141—44.
Petitioner instructed Wilson to drive to two local churches, before
directing her to park at the second church. Id. at 146, 150-53. Once parked,
Petitioner ripped the duct tape from Wilson’s mouth and began ranting about
every argument they ever had. Id. at 154-56. Wilson testified that Petitioner
told her his life was ruined because he killed a man. Id. at 157. Petitioner
pulled Wilson from the car, started quoting scripture, and told her he would
never hurt her. Id. at 158—60. Petitioner pulled the magazine out of the gun
and put it in his pocket. Id. at 161. Around 6 a.m., Petitioner noted that it was
time for her children to get up, and Wilson drove them back to her house. Id. at
161, 163. Wilson parked behind the house and exited the car. Id. at 165-66.
3

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 4 of 33

Petitioner cleaned Wilson’s face, fixed her hair, and told her to get her children
out of the house by 7-30 a.m. Id. at 167-68. Petitioner also told Wilson not to
use the phone. Id. at 168. Wilson went in the house alone, woke up her younger
children, and told them to get dressed. Id. at 168—69. Wilson then woke up her
older son, told him Petitioner had killed Best, and asked him to help her get
the younger children ready for school while she called 911. Id. at 170—71.
When she heard sirens, Wilson and her children left the house and ran to meet
the police out front. Id. at 174, 180—81.
Officers apprehended Petitioner in Wilson’s backyard, and removed
from Petitioner’s pants pocket the gun, a magazine, and loose bullets. [ECF
Nos. 18-1 at 279-815 18-2 at 40-41]. Officers also found what appeared to be a
newly-cut key in Petitioner’s possession that opened Wilson’s back door. [ECF
No. 18-1 at 281, 377-78]. Officers kicked in Wilson’s locked bedroom door and
found Best lying on the bed with a fatal gunshot wound to his head. [ECF Nos.
18-1 at 328-30; 18-2 at 23-24]. Ballistic testing confirmed the gun recovered
from Petitioner fired both the shell casing found in Wilson’s bedroom and the
bullet retrieved from Best’s body. [ECF No. 18-2 at 73-78]. South Carolina
Law Enforcement Division (“SLED”) analysts found (a) lead particles on
Petitioner’s shirt sleeves, (b) Wilson’s blood on the bottom of Petitioner’s pants,
and (c) Wilson’s skin cells and DNA on the duct tape. [ECF Nos. 18_2 at 52-53;
18-3 at 6-8].
4

l:17-cv-02484-RMG

II.

Date Filed 06/20/18

Entry Number 26

Page 5 of 33

Procedural Background
Petitioner was indicted by the Greenwood County grand jury during the

December 2004 term of court for first degree burglary, murder, kidnapping.
and possession of a firearm during the commission of a violent crime (Ind. No.
2004-GS-24-1187). [ECF No. 18 at l]. Adam S. Bacot, Esq., represented
Petitioner at his first trial, which ended in a hung jury. Id. Petitioner was
represented by Christopher L. Sheek, Esq., during his second trial, which also
resulted in a hung jury. Id. Attorney Sheek again represented Petitioner at his
third jury trial on June 19 to 21, 2006, before the Honorable Wyatt T.
Saunders, Circuit Court Judge. [ECF No. at 18-1 at 3 et seq]. The jury found
Petitioner guilty as charged. [ECF No. 18-3 at 126]. Judge Saunders sentenced
Petitioner to life on the murder and first degree burglary convictions, 30 years
concurrent for kidnapping, and 5 years consecutive on the weapon charge. Id.
at 134-35.
Petitioner appealed his convictions to the South Carolina Court of
Appeals (“Court of Appeals”). [ECF No. 18_3 at 137]. Joseph L. Savitz, III,
Esq., of the. South Carolina Commission on Indigent Defense, Division of
Appellate Defense, represented Petitioner on appeal. Id. at 137—48. Attorney
Savitz filed a final brief on or about June 17, 2008, raising the following issues1.

The trial judge committed reversible error by preventing the
defense from introducing evidence Wilson may have killed
Best (and then pinned the homicide on Vandross) out of
5

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 6 of 33

jealousy over his blatant affairs, as the exclusion of this
evidence violated State v. Gregory., 198 S.C. 98, 16 S.E.2d
532 (1941), as well as the Sixth and Fourteenth
Amendments, under Holmes v. South Carolina, 547 U.S.
319 (2006).
2.

The trial judge committed reversible error by allowing into
evidence State’s Exhibit 34, “a photograph of a Bible that
was laying in close proximity to the victim’s right hand at
the incident location,” and State’s Exhibit 37, “a photograph
. . . of the same Bible from a slightly different angle,” as
these photographs were irrelevant under Rule 401, SCRE,
and unfairly prejudicial under Rule 403.

Id. at 140. On May 5, 2009, the Court of Appeals filed an unpublished decision
affirming Petitioner’s convictions. Id. at 150—52. The remittitur was issued on
May 22, 2009. Id. at 148.
Petitioner filed an application for post-conviction relief (“PCR”) on
February 26, 2010, in which he alleged claims of ineffective assistance of
appellate counsel, prosecutorial misconduct, judicial abuse of discretion, and
ineffective assistance of trial counsel. Id. at 178—79. David E. Belding, Esq.,
represented Petitioner at PCR. Id. at 190-343. A PCR evidentiary hearing was
held before the Honorable Clifton B. Newman, Circuit Court Judge, on March
13, 2013, at which Petitioner and his trial counsel testified. Id.
Subsequent to the PCR hearing, Petitioner filed a motion to relieve
Attorney Belding as counsel. [ECF No. 18-7 at 361—377]. On October 13, 2013,
the Honorable Thomas A. Russo declined to hear Petitioner’s motion to relieve
counsel finding his claim was not ripe, as Judge Newman had not ruled on
6

1

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 7 of 33

Petitioner’s PCR application. Id. at 361-71. On November 2, 2013, Petitioner
filed a motion to amend his PCR application [ECF Nos. 18-3 at 356-382; 18-4
at 1-79], which Attorney Belding ratified on November 19, 2013. [ECF No.
18-5 at 153-55]. On March 17, 2014, Judge Newman issued an order
dismissing Petitioner’s PCR application and denying Petitioner’s motion to
amend. Id. at 156—70.
Petitioner appealed the denial of his PCR application to the South
Carolina Supreme Court. Id. at 171. Elizabeth A. Franklin-Best, Esq., and E.
Charles Grose, Esq., represented him on appeal. [ECF No. 18-8]. On or about
August 13, 2015, Petitioner requested the court remand the case for a hearing
regarding Attorney Belding’s conflict of interest with Petitioner, or in the
alternative, to allow Petitioner to file a successive PCR application with new
counsel. [ECF No. 18-10]. On October 8, 2015, the South Carolina Supreme
Court issued an order denying Petitioner’s motion. [ECF No. 18*12].
Petitioner filed a petition for writ of certiorari in the South Carolina
Supreme Court on or about February 9, 2016, raising the following issues:
I.

Did Petitioner receive ineffective assistance of counsel when
his trial counsel failed to obtain funding for expert witnesses
because he did not realize he could request the funds
because of Petitioner’s status as an indigent defendant? Did
the PCR judge err when he found that Petitioner received
effective assistance of counsel?

II.

Was Petitioner denied his right to due process when both
trial and post-conviction relief counsel failed to secure
7

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 8 of 33

funding for experts in this case that was heavily reliant on
the use of forensic experts?
III.

Did Petitioner’s court-appointed attorney abandon him
during his post-conviction relief proceeding and deny him
his one full bite at the apple?

IV.

Did the solicitor commit misconduct when he struck Asia
Seigler, an African-American woman from the venire in
violation of Batson v. Kentucky?

V.

Did trial counsel render ineffective assistance of counsel
when he failed to object to the improper photographs
showing a bible next . to the decedent which those
photographs were irrelevant and their admission was highly
prejudicial?

[ECF No. 18-8 at 6]. By order dated July 24, 2017, based on the vote of the
court, the South Carolina Supreme Court denied the petition. [ECF No. 18-13].
The remittitur was issued on August 9, 2017. [ECF No. 18_14]. Petitioner filed
this federal petition for a writ of habeas corpus on September 15, 2017. [ECF
No. 1].
III.

Discussion
A.

Federal Habeas Issues

Petitioner asserts he is entitled to a writ of habeas corpus on the
following groundsGround One:

Petitioner received ineffective assistance of trial counsel
when trial counsel failed to obtain funding for expert
witnesses when he did not realize he could request funding
due to Petitioner’s indigent status.

8

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 9 of 33

Ground Two-

Trial counsel rendered ineffective assistance of counsel
when he failed to object to the Solicitor’s improper strike of
Asia Seigler, an African-American woman from the venire in
violation of Batson v. Kentucky.

Ground Three-

The trial judge committed reversible error by preventing the
defense from introducing evidence Wilson may have killed
Best (and then pinned the homicide on Vandross) out of
jealousy over his blatant affairs, as the exclusion of this
evidence violated the Sixth and Fourteenth Amendments
under Holmes v. South Carolina, 547 U.S. 319 (2006).

[ECF No. 1 at 24-35].
B.

Standard for Summary Judgment

Summary judgment is appropriate “if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). “Only disputes over facts that might
affect the outcome of the suit under the governing law will properly preclude
the entry of summary judgment.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). “[S]ummary judgment will not lie if the dispute about a
material fact is ‘genuine,’ that is, if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Id. At the summary judgment
stage, the court must view the evidence in the light most favorable to the
non-moving party and draw all justifiable inferences in its favor. Id. at 255.
However, “[o]nly disputes over facts that might affect the outcome of the suit
under the governing law will properly preclude the entry of summary

9

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 10 of 33

judgment. Factual disputes that are irrelevant or unnecessary will not be
counted.” Id. at 248.
The moving party has the burden of proving that summary judgment is
appropriate. Once the moving party makes this showing, however, the
opposing party may not rest upon mere allegations or denials, but rather
must, by affidavits or other means permitted by the Rule, set forth specific
facts showing that there is a genuine issue for trial. See Fed. R. Civ. P. 56(e).
C.

Habeas Corpus Standard of Review
1.

Generally

Because Petitioner filed his petition after the effective date of the
Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), review of
his claims is governed by 28 U.S.C. § 2254(d), as amended. Lindh v. Murphy;
521 U.S. 320 (1997); Breard v. Pruett, 134 F.3d 615 (4th Cir. 1998). Under the
AEDPA, federal courts may not grant habeas corpus relief unless the
underlying state adjudication^ (l) resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or (2) resulted in a
decision that was based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding. 28 U.S.C. §
2254(d)(l)(2); see Williams v. Taylor, 529 U.S. 362, 398 (2000). “[A] federal
habeas court may not issue the writ simply because that court concludes in its
10

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 11 of 33

independent judgment that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly. Rather, that application
must also be unreasonable.” Id. at 410.

Moreover, state court factual

determinations are presumed to be correct and the petitioner has the burden
of rebutting this presumption by clear and convincing evidence. 28 U.S.C. §
2254(e)(1).
2.

Procedural Bar

Federal law establishes this court’s jurisdiction over habeas corpus
petitions. 28 U.S.C. § 2254. This statute permits relief when a person “is in
custody in violation of the Constitution or laws or treaties of the United
States!,]” and requires that a petitioner present his claim to the state’s highest
court with authority to decide the issue before the federal court will consider
the claim. Id. The separate but related theories of exhaustion and procedural
bypass operate in a similar manner to require a habeas petitioner to first
submit his claims for relief to the state courts. A habeas corpus petition filed in
this court before the petitioner has appropriately exhausted available
state-court remedies or has otherwise bypassed seeking relief in the state
courts will be dismissed absent unusual circumstances detailed below.
a.

Exhaustion

Section 2254 contains the requirement of exhausting state-court
remedies and provides as follows'
11

l:17-cv-02484-RMG

(b)

Date Filed 06/20/18

Entry Number 26

Page 12 of 33

(l) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court, shall not be
granted unless it appears that—
(A)

the applicant has exhausted the remedies available in
the courts of the State; or

(B)

(i) there is an absence of available State corrective
process; or
(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.

(2) An application for a writ of habeas corpus may be denied on
the merits, notwithstanding the failure of the applicant to exhaust
the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion
requirement or be estopped from reliance upon the requirement
unless the State, through counsel, expressly waives the
requirement.
(c)

An applicant shall net be deemed to have exhausted the remedies
available in the courts of the State, within the meaning of this
section, if he has the right under the law of the State to raise, by
any available procedure, the question presented.

28U.S.C. § 2254.
The statute requires that, before seeking habeas corpus relief, the
petitioner first must exhaust his state court remedies. 28 U.S.C. §
2254(b)(1)(A). In South Carolina, a person in custody has two primary means
of attacking the validity of his conviction^ (l) through a direct appeal, or (2) by
filing an application for PCR. State law requires that all grounds be stated in
1 tie direct appeal or PCR application. Rule 203 SCACR; S.C. Code Ann. §
12

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 13 of 33

17-27-10, etseq.', S.C. Code Ann. § 17-27-90; Blakeley v. Rabon, 221 S.E.2d 767
(S.C. 1976). If the PCR court fails to address a claim as is required by S.C.
Code Ann. § 17-27-80, counsel for the applicant must make a motion to alter or
amend the judgment pursuant to Rule 59(e), SCRCP. Failure to do so will
result in the application of a procedural bar by the South Carolina Supreme
Court. Marlar v. State, 653 S.E.2d 266 (S.C. 2007).1 Furthermore, strict time
deadlines govern direct appeal and the filing of a PCR in the South Carolina
courts. A PCR must be filed within one year of judgment, or if there is an
appeal, within one year of the appellate court decision. S.C. Code Ann. §
17-27-45.
The United States Supreme Court has held that “state prisoners must
give the state courts one full opportunity to resolve any constitutional issues
by invoking one complete round of the State’s established appellate review
process”—which includes “petitions for discretionary review when that review
is part of the ordinary appellate review procedure in the State.” O’Sullivan v.
Boerckel, 526 U.S. 838, 845 (1999). This opportunity must be given by fairly
presenting to the state court “both the operative facts and the controlling legal
1 In Bostick v. Stevenson, 589 F.3d 160, 162-65 (4th Cir. 2009), the Fourth
Circuit found that, prior to the Supreme Court of South Carolina’s November
5, 2007, decision in Marlar, South Carolina courts had not been uniformly and
strictly enforcing the failure to file a motion pursuant to Rule 59(e), SCRCP, as
a procedural bar. Accordingly, for matters in which there was a PCR ruling
prior to November 5, 2007, the court will not consider any failure to raise
issues pursuant to Rule 59(e) to effect a procedural bar.
13

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 14 of 33

principles” associated with each claim. Baker v. Corcoran, 220 F.3d 276, 289
(4th Cir. 2000) (citing Matthews v. Evatt; 105 F.3d 907, 911 (4th Cir. 1997)
(internal quotation marks omitted)). That is to say, the ground must “be
presented face_up and squarely.” Mallory v. Smith, 27 F.3d 991, 995 (4th Cir.
: 994) (citation and internal quotation marks omitted).
The South Carolina Supreme Court has held that the presentation of
laims to the state court of appeals without more is sufficient to exhaust state
remedies for federal habeas corpus review. State v. McKennedy, 559 S.E.2d
850 (S.C. 2002); see also In re Exhaustion of State Remedies in Criminal and
Post-Conviction ReUef Cases, 471 S.E.2d 454 (S.C. 1990). The McKennedy
ourt held that In re Exhaustion had placed discretionary review by the South
Carolina Supreme Court “outside of South Carolina’s ordinary appellate
review procedure pursuant to OSullivan.” 559 S.E.2d at 854. As such, it is an
‘ extraordinary” remedy under OSullivan, “technically available to the litigant
but not required to be exhausted.” Adams v. Holland, 330 F.3d 398, 403 (6th
Cir. 2003).
Because the South Carolina Supreme Court has held that presentation
of certain claims to the Court of Appeals without more is sufficient to exhaust
state remedies, a claim is not procedurally barred from review in this court for
failure to pursue review in the South Carolina Supreme Court after an adverse
decision in the Court of Appeals.
14

l:17-cv-02484-RMG

b.

Date Filed 06/20/18

Entry Number 26

Page 15 of 33

Procedural Bypass

Procedural bypass, sometimes referred to as procedural bar or
procedural default, is the doctrine applied when a petitioner who seeks habeas
corpus relief as to an issue failed to raise that issue at the appropriate time in
state court and has no further means of bringing that issue before the state
courts. In such a situation, the person has bypassed his state remedies and, as
such, is procedurally barred from raising the issue in his federal habeas
petition. Procedural bypass of a constitutional claim in earlier state
proceedings forecloses consideration by the federal courts. See Smith v.
Murray, 477 U.S. 527, 533 (1986). Bypass can occur at any level of the state
/

proceedings if the state has procedural rules that bar its courts from
considering claims not raised in a timely fashion.
The South Carolina Supreme Court will refuse to consider claims raised
in a second appeal that could have been raised at an earlier time. Further, if a
prisoner has failed to file a direct appeal or a PCR and the deadlines for filing
have passed, he is barred from proceeding in state court. If the state courts
have applied a procedural bar to a claim because of an earlier default in the
state courts, the federal court honors that bar. As the Supreme Court explains. . . [state procedural rules promote] not only the accuracy and
efficiency of judicial decisions, but also the finality of those
decisions, by forcing the defendant to litigate all of his claims
together, as quickly after trial as the docket will allow, and while
the attention of the appellate court is focused on his case.
15

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 16 of 33

/feed v. Boss, 468 U.S. 1, 10-11 (1984).
However, if a federal habeas petitioner can show both (l) ‘“cause’ for
l odcompliance with the state rule!,]” and (2) ‘“actual prejudice resulting from
t lie alleged constitutional violation!,]’” the federal court may consider the
(Iaim. Smith v. Murray,, 477 U.S. at 533 (quoting Wainwright v. Sykes, 433
U.S. 72, 84 (1977)). When a petitioner has failed to comply with state
] voce dural requirements and cannot make the required showing of cause and
irejudice, the federal courts generally decline to hear the claim. Murray v.
'arrier, All U.S. 478, 496 (1986), superseded by statute on other grounds
UEDPA).
If a federal habeas petitioner has failed to raise a claim in state court
Mid is precluded by state rules from returning to state court to raise the issue,
1 e has procedurally bypassed his opportunity for relief in the state courts and
i i federal court. A federal court is barred from considering the filed claim
(ibsent a showing of cause and actual prejudice). In such an instance, the
exhaustion requirement is technically met and the rules of procedural bar
i pply. See Matthews v. Evatt, 105 F.3d at 915 (citing Coleman v. Thompson,
{01 U.S. 722, 735 n.l (1991); Teague v. Lane, 489 U.S. 288, 297-98 (1989);
(horge v. Angelone, 100 F.3d 353, 363 (4th Cir. 1996); Bassette v. Thompson,
< 15 F.2d 932, 937 (4th Cir. 1990)).
16

l:17-cv-02484-RMG

3.

Date Filed 06/20/18

Entry Number 26

Page 17 of 33

Cause and Actual Prejudice

Because the requirement of exhaustion is not jurisdictional, this cour;
may consider claims that have not been presented to the states courts hi
limited circumstances in which a petitioner shows sufficient cause for failure
to raise the claim and actual prejudice resulting from the failure, Coleman,
501 U.S. at 750, or that a “fundamental miscarriage of justice” has occurred.
Murray,; 477 U.S. at 495-96. A petitioner may prove cause if he can
demonstrate ineffective assistance of counsel relating to the default, show ai i
external factor which hindered compliance with the state procedural rule, o:’
demonstrate the novelty of a particular claim. Id. Absent a showing of “cause,
the court is not required to consider “actual prejudice.” Turner v. Jabe, 58 F.3d
924 (4th Cir. 1995). However, if a petitioner demonstrates sufficient cause, he
must also show actual prejudice in order to excuse a default. Murray, 477 U.S.
at 492. To show actual prejudice, the petitioner must demonstrate more than
plain error.
4.

Ineffective Assistance of Counsel Claims

To prevail on his ineffective assistance of counsel claims, Petitione:
must show (l) that his trial counsel’s performance fell below an objective
standard of reasonableness, and (2) that a reasonable probability exists tha:
but for counsel’s error, the result of the proceeding would have been different.
Strickland v. Washington, 466 U.S. 668, 694 (1984). The court must apply n
17

117-CV-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 18 of 33

" 11jag presumption” that trial counsel’s representation fell within the “wide
i

i.[E i of reasonable professional assistance,” and the errors must be “so

£ ■ !

in as that counsel was not functioning as the counsel guaranteed the

c ft aidant by the Sixth Amendment.” Harrington v. Richter, 131 S. Ct. 770,
r 1 12011). This is a high standard that requires a habeas petitioner to show
ti al counsel’s errors deprived him “of a fair trial, a trial whose result is
i liiible.” Strickland, 466 U.S. at 687. That the outcome would “reasonably
1 I i.’ly” have been different but for counsel’s error is not dispositive of the
l i <vj li dice inquiry. Rather, the court must determine whether the result of the
J 1 i ir<

r i

eding was fundamentally unfair or unreliable. Harrington, 131 S. Ct. at

1 ■ 385 Strickland, 466 U.S. at 694.
The United States Supreme Court has cautioned that “‘[slurmounting

k I 'Ickland’s high bar is never an easy task[,]’ . . . [establishing that a state
c I

ill’s application of Strickland was unreasonable under § 2254(d) is all the

ri.it

difficult.” Harrington, 131 S. Ct. at 788 (quoting Padilla v. Kentucky, 559

1 4 356, 371 (2010)). When evaluating an ineffective assistance of counsel
c I id n , the petitioner must satisfy the highly deferential standards of 28 U.S.C.
>4(d) and Strickland “in tandem,” making the standard “doubly” more

§ :!

c i 'Hr alt. Harrington, 131 S. Ct. at 788. In such circumstances, the “question is
whether counsel’s actions were reasonable,” but whether “there is any

11 '

Mi

nable

argument

that

counsel

satisfied
18

Strickland’s

deferential

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 19 of 33

standards.” Id. The unreasonableness of the state court determination must h j
“beyond any possibility of fairminded disagreement.” Id. at 787. “If this
standard is difficult to meet, that is because it was meant to be.” Id. at 78f.
Section 2254(d) codifies the view that habeas corpus is a “‘guard againi: t
extreme malfunctions in the state criminal justice system/ not a substitute fo c
ordinary error correction through appeal.” Id., quoting Jackson v. Virgin! ,
443 U.S. 307, 332 n.5 (1979)).
D.

Analysis
1.

Procedurally-Barred Ground

In Ground Two, Petitioner claims his trial counsel rendered ineffectiv >
assistance of counsel when he failed to object to the solicitor’s improper strik i
of Asia Seigler, an African-American female, from the jury venire in violation
of Batson. [ECF No. 1 at 30]. Respondent argues this claim is procedural!
barred because (l) the PCR court did not address the claim, and (2) Petitione:
failed to raise the claim to the Court of Appeals in his appeal of the den Lai o f
his PCR. [ECF No. 18 at 28-29]. Liberally construed, the undersigned findu
the PCR court ruled on Petitioner’s Ground Two claim. See [ECF No. 18-5 nt
162—63]. However, because Petitioner failed to properly present the claim !.)
the South Carolina appellate courts, it is procedurally-barred.
In his PCR appeal, Petitioner raised the following claim, “Did t.h s
solicitor commit misconduct when he struck Asia Seigler, an African-America n
19

I 17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 20 of 33

v

m from the venire in violation of Batson v. KentuckyT [ECF No. 18-8 at

61

.1 though Petitioner now contends his counsel argued the substance of his

( i

nd Two claim to the South Carolina Supreme Court, there is no indication

I

loner amended the original ground for appeal to convert his claim of

Pi

tutorial misconduct into one of ineffective assistance of counsel.

1

■dingly, the undersigned finds Ground Two was not properly presented to

O'

led on by the South Carolina appellate courts. See, Coleman v. Thompson,

511

i J.S. 722 (1991) (holding issue not properly raised to state’s highest court,

a i I jrocedurally impossible to raise there now, is procedurally barred from
r

w in federal habeas). Absent a showing of cause and actual prejudice or

a

tl innocence, Petitioner’s claim in Ground Two is procedurally barred.

11

!wright v. Sykes, 433 U.S. 72, 87 (1977).
2.

Cause and Prejudice

Petitioner has not shown sufficient cause and prejudice to excuse the
dl:

lit of Ground Two. In all cases in which a state prisoner has defaulted his

f«!l

al claims in state court pursuant to an independent and adequate state

Pi

dural rule, federal habeas review of the claim is barred unless the

Pi

tier can demonstrate cause for the default and actual prejudice as a result

ol

i alleged violation of federal law, or demonstrate that failure to consider

tl-

laims will result in a fundamental miscarriage of justice. Petitioner has

fi

l to meet this burden. Thus, his claim is procedurally barred from
20

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 21 of <3

consideration by this court and should be dismissed. See 28 U.S.C. § :!2 • ;
Rodriguez v. Young; 906 F.2d 1153, 1159 (7th Cir. 1990) (“Neither

(HI

3

without prejudice nor prejudice without cause gets a defaulted claim Ini )
Federal Court.”); Mazzell v. Evatt, 88 F.3d 263, 269 (4th Cir. 1996) (fiiidi *
that in order to show prejudice a petitioner must show that there b \
reasonable probability that, but for counsel’s errors, the result of 11 3
proceeding would have been different); Rodriguez, 906 F.2d at 1159 ' \
fundamental miscarriage of justice occurs only in extraordinary cases, “vh

3

a constitutional violation has probably resulted in the conviction of one v hi

-3

actually innocent”); Sawyer v. Whitley, 505 U.S. 333, 348 (1992).
The existence of cause must ordinarily turn on whether the prisoner ( •

i

show some objective factor external to the defense impeded counsel’s or In5
efforts to comply with the state’s procedural rule. Murray, 477 U.S. at <lf .
Petitioner fails to articulate cause for procedurally defaulting on his clai ' .
Petitioner had a trial, a direct appeal, a PCR hearing, and a PCR app( n l 1 1
which to raise this issue. However, he failed to raise it, raise it properly,

r

preserve the issue for habeas review. Petitioner cannot establish caus( hi 1
prejudice because he has abandoned the opportunities to preserve this is h i
Petitioner cites to the holding in Martinez v. Ryan, 566 U.S. 1 (201:1 ,
and argues the procedural bar applied to Ground Two should be lifted diu i )
his PCR counsel’s substandard performance. [ECF No. 22 at 9-111. Ii
21

17-cv-02484-RMG

1-/

i inez,

Date Filed 06/20/18

Entry Number 26

Page 22 of 33

the Court held that “[inadequate assistance of counsel at

ij):i ul-review collateral proceedings may establish cause for a prisoner’s
pr i dural default of a claim of ineffective assistance at trial.” Martinez, 566
U.

at 9.
[W]hen a State requires a prisoner to raise an
ineffective-assistance-of-trial-counsel claim in a collateral
proceeding, a prisoner may establish cause for a default of an
ineffective_assistance claim in two circumstances. The first is
where the state courts did not appoint counsel in the initial-review
collateral proceeding for a claim of ineffective assistance at trial.
The second is where appointed counsel in the initiaTreview
collateral proceeding, where the claim should have been raised,
was ineffective under the standards of Strickland v. Washington.
To overcome the default, a prisoner must also demonstrate that
the underlying ineffective-assistance-of-trial-counsel claim is a
substantial one, which is to say that the prisoner must
demonstrate that the claim has some merit.

5(1 I J.S. at 14. (internal citation omitted).
Petitioner claims his trial counsel rendered ineffective assistance of
co< isel by allowing the state, without objection, to improperly remove Ms.
Sc' |er from his jury. [ECF No. 22 at 111. Petitioner argues the state violated
nn when it removed Ms. Seigler, who was a student, for being single and
u II

nployed, when it did not strike a similarly situated Caucasian housewife.

Id In Batson, the Supreme Court delineated a three-step analysis for
ev ; i lation of a defendant’s claim that a prosecutor used a peremptory strike in
a

i ially-discriminatory manner- (l) a defendant must make a prima facie

sh Tng that the prosecutor exercised his peremptory challenges on the basis
22

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 23 of ^

of race; (2) the burden then shifts to the prosecutor to articulate a race-ne i

i.l

reason for striking the juror in question; and (3) the trial court must deter

re

whether

the

defendant

carried

his

burden

of proving

purpc : i 1

discrimination. See Hernandez v. New York, 500 U.S. 352, 358-59 ( i m)
(plurality opinion) (citing Batson, 476 U.S. at 96-98).
A review of the record shows trial counsel did, in fact, challeng * l e
state’s reasons for removing Ms. Seigler. See [ECF No. 18-1 at 53, M ! 2
Examining the evidence before the court, the undersigned finds Petitione I s
failed to provide sufficient evidence to establish trial counsel was ineffecti n ii
raising and arguing his Batson challenge. The undersigned finds

I e

procedural bar to Petitioner’s Ground Two should not be lifted.

2 In response to trial counsel’s Batson motion, the solicitor stated he s ( i < t
Asia Seigler because she was single and unemployed. [ECF No. 18-1 ail.
Trial counsel arguedYour Honor, I simply point out that juror number 112, Asia
Seigler, identified herself as a student. While she may not have
paid employment, I don’t think being a student would be a proper
reason to strike somebody from the jury.
Id. at 56. The solicitor was questioned whether there were any Cauc;t .
jurors who were unemployed students, and the solicitor responded th; |
believed everyone on the jury was employed except that he thought there i
have been a housewife. Id. at 57. Trial counsel offered no further argui i
and the court overruled the objection to restrike the jury, finding the stat< ■
expressed “racially neutral and nonpretensive reasons for the strike.” Id. n
23

ii
| e
iy
ll

I.: 17-CV-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 24 of 33

In the alternative, Petitioner must show a miscarriage of justice. To
den onstrate a miscarriage of justice, Petitioner must show he is actually
inj ji (Cent. Actual innocence is defined as factual innocence, not legal innocence.
Boi sley v. United States, 523 U.S. 614, 623 (1998). Petitioner cannot establish
tin; errors he complains of probably resulted in the conviction of an innocent
pen on. Schlup v. Delo, 513 U.S. 298, 338 (1995). In order to pass through the
act i al-innocence gateway, a petitioner’s case must be “truly extraordinary.”
Id. The court’s review of the record does not support a showing of actual
mil' icence.
During the trial, the solicitor presented the facts recited in the Factual
Ba< Aground section above, and the jury determined Petitioner was guilty of
the murder, kidnapping, burglary, and weapon charges. The record makes an
asm rtion of actual innocence not credible. The undersigned finds Petitioner
han failed to meet his burden of demonstrating actual innocence, and
the efore, the procedural bar applies to his claim in Ground Two.
3.

Merits
a)

Ground One

In Ground One, Petitioner claims he received ineffective assistance of
tria counsel for failing to obtain funding for expert witnesses because he did
nol; realize he could request funding based on Petitioner’s indigent status.
[EC I? No. 1 at 24]. Petitioner argues, “[g]iven the State’s heavy reliance on
24

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 25 of c

forensic testimony, and the two prior mistrials, counsel’s performance

.iiS

objectively both deficient and prejudicial.” Id.
During the PCR hearing, trial counsel testified he and Petit

:r

discussed different types of experts, but they did not have a particula:

!*e

they wanted to retain. [ECF No. 18-3 at 320-21]. Counsel testified he bel

(id

an expert would be beneficial, but he did not hire one because Petitione i lid
not have the funds to retain an expert. Id. at 321.
The PCR court denied this claim, findingApplicant alleges Counsel was ineffective for failing to retain and
call an expert witness on Applicant’s behalf to examine the
handprint found on JoAnn Suber Wilson’s (Wilson) shirt.
Applicant also alleged Counsel was ineffective for not retaining an
expert witness on the subject of ballistics. Applicant further
claims Counsel was ineffective for failing to retain a gunshot
residue expert in this case.
At the PCR hearing, Applicant testified he had conversations with
Counsel about the handprint found on Wilson’s shirt and how
none of the blood on the shirt matched his DNA profile. Applicant
also claims the State argued at trial that the handprint was
Applicant’s, and Counsel failed to contest this through the use of
expert testimony.
Applicant testified Counsel failed to question the State’s evidence
of the shell casing found in the bedroom where the shooting
occurred. Applicant alleged Counsel did not impeach Wilson’s
testimony that she was asleep when the shooting occurred with
the trajectory of the shell casing which, Applicant claims, would
have travelled over Ms. Wilson while she was sleeping. Applicant
further testified Counsel failed to fully contest Dr. Sexton’s
testimony concerning the distance which the gun was fired at the
decedent.
25

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 26 of 33

Additionally, Applicant testified Counsel failed to retain a gunshot
residue expert in this case to challenge the State’s evidence that
lead particles, which are consistent with gunshot residue, were
found on Applicant’s sleeve.
On cross-examination, Applicant admitted that none of these
“experts” were present to testify on his behalf at the PCR hearing.
Counsel testified he wanted to retain experts in this case, but
Applicant had no funds with which to hire these experts. Counsel
also testified he used the prior trial transcripts to fully crossexamine the witnesses, especially Wilson.
Prejudice from trial counsel’s failure to call witnesses cannot be
shown where the witnesses do not testify at post-conviction relief.
Underwood v. State. 309 S.C. 560, 425 S.E.2d 20 (1992); Bassette
v. Thompson. 915 F.2d 932 (4th Cir. 1990), cert, denied, 499 U.S.
982 (1991). An Applicant must produce the testimony of a
favorable witness or otherwise offer the testimony in accordance
with the rules of evidence at the PCR hearing in order to establish
prejudice from the witness’ failure to testify at trial. Bannister v.
State. 333 S.C. 298, 509 S.E.2d 807 (1998). Applicant produced no
such testimony of any expert witnesses at the PCR hearing, and
therefore I cannot show any resulting prejudice.
[EOF No. 18-5 at 158-60].
In his response, Petitioner alleges he was “substantially and injuriously
prejudiced” by trial counsel’s failure to obtain any expert assistance. [ECF No.
22 at 6]. Petitioner contends the PCR court’s finding to the contrary resulted in
an

unreasonable

application

of federal

law

and

an

unreasonable

determination of the facts in light of the evidence presented. Id. Petitioner,
however, does not address his failure to offer expert testimony during his PCR
hearing. Instead, he offers an affidavit from forensic investigator Rodger
26

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 27 of 3:

Morrison, partner, Analytical & Forensic Associates, Inc.

Hunts-' | |le,

Alabama. [ECF No. 22-1]. Morrison, who states he reviewed the materia

in

Petitioner’s case, lists weak points in the law enforcement investigation »nd
opines that a forensic investigator
could have assisted trial counsel in challenging the forensic
evidence in this case. In my opinion, law enforcement did not
undertake a very thorough investigation, and I (or another
forensic investigator) could have assisted trial counsel in bring
this to the jury’s attention.
Id. at 1—2. Morrison opines that had trial or PCR counsel retained a fort -sic
investigator for purposes of challenging the forensic science testimony and
lack of physical evidence, “it would have undermined the integrity of i he
State’s case.” Id. at 2.
Petitioner fails to demonstrate he suffered prejudice because of rial
counsel’s failure to call expert witnesses. The undersigned agrees with the
PCR court that Petitioner’s failure to offer any evidence during his ] HR
hearing concerning the proposed experts’ testimony and how such testin nny
would have been favorable to him at his trial is fatal to his ineffenjve
assistance of counsel claim. See Beaver v. Thompson, 93 F.3d 1186, 1195 Ith
Cir. 1996) (finding that an allegation of inadequate investigation does not
warrant habeas relief absent a proffer of what favorable evidence or testin <ny
would have been produced). The undersigned has also considered Morrk ifi’s
affidavit and finds that it fails to offer any substantive testimony that w lid
27

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 28 of 33

have served to challenge the evidence offered by the state. The undersigned
finds Petitioner’s conclusory arguments are insufficient to satisfy the
Strickland test. Accordingly, the state court’s rejection of Petitioner’s claim
was not contrary to and did not involve an unreasonable application of federal
law. See § 2254(d)(1). The undersigned recommends the court dismiss Ground
One.
b)

Ground Three

In Ground Three, Petitioner contends the trial judge committed
reversible error by preventing him from introducing evidence that Wilson may
have killed Best and pinned the homicide on Petitioner out of jealousy over
Best’s blatant affairs. [ECF No. 1 at 33]. Petitioner argues the exclusion of this
evidence violated the Sixth and Fourteenth Amendments under Holmes v.
South Carolina, 547 U.S. 319 (2006). Id.
Evidentiary rulings are generally considered state law matters. Spencer
v. Murray., 5 F.3d 758, 763 (4th Cir. 1993) (“[A] claim about the admissibility of
evidence under state law rarely is a claim upon which federal habeas corpus
relief can be granted.”). Evidentiary rulings will not be considered in federal
habeas ‘“unless [the] erroneous evidentiary rulings were so extreme as to
result in a denial of a constitutionally fair proceeding.’” Barbe v. McBride, 521
F.3d 443, 452 (4th Cir. 2008) (quoting Burket v. Angelone, 208 F.3d 172, 186
(4th Cir. 2000)). The only proper inquiry, if any, is whether the admission of
28

1:17-CV-02484-RMG

Date Filed 06/20/18. Entry Number 26

Page 29 of 3'

the evidence itself so infected the entire trial that the resulting conviction
violated due process. Estelle v. McGuire, 502 U.S. 62, 72 (1991) C‘[I]t is no1 the
province of a federal habeas court to reexamine state-court determination i on
state-law questions. In conducting habeas review, a federal court is limited to
deciding whether a conviction violated the Constitution, laws, or treaties oi the
United States.”).
The Court of Appeals affirmed the trial court’s exclusion of third-p irty
guilt evidence findingPER CURIAM- Charles Nemon Vandross appeals his convictions
for murder, first-degree burglary, kidnapping, and possession of a
weapon during the commission of a violent crime. We affirm
pursuant to Rule 220(b), SCACR, and the following authorities.
1.
As to whether the trial court erred by preventing Vandross
from introducing evidence of third party, guilt- State v. Saltz. 346
S.C. 114, 121, 551 S.E.2d 240, 244 (2001) (“The admission or
exclusion of evidence is left to the sound discretion of the trial
judge, whose decision will not be reversed on appeal absent an
abuse of discretion.”); State v. Gregory. 198 S.C. 98, 104-05, 16
S.E.2d 532, 534-35 (1941) (“[E]vidence which can have (no) other
effect than to cast a bare suspicion upon another, or to raise a
conjectural inference as to the commission of the crime by another,
is not admissible .... [Blefore such testimony can be received, there
must be such proof of connection with it, such a train of facts or
circumstances, as tends clearly to point out such other person as
the guilty party. Remote acts, disconnected and outside the crime
itself, cannot be separately proved for such a purpose.”).
[ECF No. 18-3 at 150-51].
Respondent seeks summary judgment on Ground Three, argijing
Petitioner has failed to show the Court of Appeals erred in deciding the is me.
29

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 30 of 33

[ECF No. 18 at 61-66]. In his response, Petitioner cites to United States
Supreme Court precedent and argues the trial judge erred when he prevented
him from getting “into the fact that Sanford Best may have been seeing
someone else at the time of this fatal encounter.” [ECF No. 22 at 12].
Before the start of Wilson’s cross-examination, trial counsel proffered
testimony concerning Wilson’s relationship with Best. [ECF No. 18-1 at 193—
94], Counsel questioned Wilson about a 2002 incident in which Best called the
police when Wilson confronted him at his house about having an affair. Id. at
194-95. Wilson also testified she was not aware that Best was dating anyone
on November 4, 2004. Id. at 196. The state objected to Wilson’s testimony,
arguing it was not relevant because it addressed events that occurred two to
three years earlier. Id. at 196-200. Trial counsel argued the testimony was
relevant because it documented evidence of jealousy and violence between
Wilson and Best and supported Petitioner’s theory of the case. Id. at 197-98,
200. The trial court sustained the state’s objection, finding the testimony was
“remote in time and not probative of what happened on the date in question.”
Id. at 201-202.
During Wilson’s cross-examination, trial counsel sought to clarify what
Wilson meant when she testified that her relationship with Best was rocky. Id.
at 207-208. The state objected to the question, arguing trial counsel was
seeking to solicit information related to events that occurred two years before
30

1:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 31 of 33

Best was killed. Id. at 208-209. The court sustained the state’s objection,
finding that the information sought was “not relevant to who . . . may or may
not have perpetrated the crime in question.” Id. at 209.
As an initial matter, the undersigned finds trial counsel did not attempt
to offer evidence that Best was dating someone else at the time he was killed.
The undersigned further finds Petitioner has failed to present sufficient
evidence to show the trial judge’s refusal to admit evidence concerning Best
and Wilson’s relationship two to three years before the shooting, was contrary
to, or involved an unreasonable application of, clearly established federal law.
Petitioner has also not established the state court’s rulings resulted in a
decision that was based on an unreasonable determination of the facts in light
of the evidence presented during Petitioner’s trial. Evans v. Smith, 220 F.3d
306, 312 (4th Cir. 2000) (holding that federal habeas relief will not be granted
on a claim adjudicated on the merits by the state court unless it resulted in a
decision that was an unreasonable determination of the facts based on the
evidence presented in the state court proceeding); Williams v. Taylor, 529 U.S.
420 (2000); Bell v. Jarvis, 236 F.3d 149, 157-58 (4th Cir. 2000); 28 U.S.C. §
2254(e)(1) (finding the determination of a factual issue by the state court shall
be presumed correct unless rebutted by clear and convincing evidence).
Accordingly, the undersigned recommends Respondent’s motion for summary
judgment be granted on Ground Three.
31

l:17-cv-02484-RMG

IV.

Date Filed 06/20/18

Entry Number 26

Page 32 of 33

Conclusion and Recommendation
For the foregoing reasons, the undersigned recommends Respondent’s

motion for summary judgment [ECF No. 19] be granted.
IT IS SO RECOMMENDED.

Shiva V. Hodges
United States Magistrate Judge

June 20, 2018
Columbia, South Carolina

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

32

l:17-cv-02484-RMG

Date Filed 06/20/18

Entry Number 26

Page 33 of 33

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to
this Report and Recommendation with the District Judge. Objections must
specifically identify the portions of the Report and Recommendation to which
objections are made and the basis for such objections. “[I]n the absence of a
timely filed objection, a district court need not conduct a de novo review, but
instead must ‘only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.’” Diamond v. Colonial Life &
Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory
committee’s note).
Specific written objections must be filed within fourteen (14) days of the
date of service of this Report and Recommendation. 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 72(b); see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to
Federal Rule of Civil Procedure 5 may be accomplished by mailing objections
to*
Robin L. Blume, Clerk
United States District Court
901 Richland Street
Columbia, South Carolina 29201
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment
of the District Court based upon such Recommendation. 28 U.S.C. §
636(b)(1); Thomas v. Arn, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841
(4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

33

l:17-cv-02484-RMG

Date Filed 07/20/18

Entry Number 30

Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
AIKEN DIVISION
Charles Nemon Vandross,
Petitioner,

v.
Bryan Stirling, Commissioner,
South Carolina Department of
Corrections, and Broad River
Correctional Institution,
Respondent.

Civil Action No. l:17-2484-RMG

)
)
)
)
)
)
)
)
)
)
)
)

ORDER AND OPINION

Before the Court is the Report and Recommendation (“R & R”) of the Magistrate Judge
recommending that Respondent’s motion for summary judgment be granted. For the reasons set
forth below, the Court adopts the R & R as the order of the Court and grants Respondent’s
motion for summary judgment.
I.

Background
Petitioner Charles Nemon Vandross, an inmate at the Perry Correctional Institute of the

South Carolina Department of Corrections, petitioned for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. In December 2004, Petitioner was indicted by a South Carolina grand jury for
first degree burglary, murder, kidnapping and possession of a firearm during the commission of a
violent crime. Petitioner was alleged to have, on November 1, 2004, broken into the home of his
ex-girlfriend, Ms. Wilson, kidnapped her and killed her friend, Mr. Best. Petitioner’s first and
second trials resulted in a hung jury. At the third jury trial, he was found guilty and sentenced to
life in prison for the murder and burglary convictions, thirty concurrent years for the kidnapping
conviction, and five consecutive years for the unlawful firearm possession conviction.

-1-

l:17-cv-02484-RMG

Date Filed 07/20/18

Entry Number 30

Page 2 of 5

Petitioner appealed his convictions and sentence to the South Carolina Court of Appeals,
and the appeal was dismissed. Petitioner applied for post-conviction relief and was denied.
Petitioner filed a Rule 15(b) and (c) motion and a motion for remand or for leave to file a
successive post-conviction relief application, which was denied by the South Carolina Supreme
Court.
Petitioner then filed the federal petition for a writ of habeas corpus asserting three
grounds: (1) Petitioner received ineffective assistance of trial counsel when the counsel did not
obtain expert witness funding for his indigent client (Dkt. No. 1 at 24-30); (2) Petitioner received
ineffective assistance of trial counsel when the counsel did not object to a certain jury strike {Id.
at 30-33); and (3) the trial judge’s evidentiary ruling precluding testimony on Ms. Wilson’s
relationship with Mr. Best constituted reversible error {Id. at 33-35).
II.

Legal Standard

A.

Review of R & R
The Magistrate Judge makes a recommendation to this Court that has no presumptive

weight. The responsibility to make a final determination remains with the Court. See, e.g.,
Mathews v. Weber, 423 U.S. 261, 270-71 (1976). The Court may “accept, reject, or modify, in
whole or in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. §
636(b)(1)(C).
Where the petitioner objects to the R & R, the Court “makes a de novo determination of
those portions of the report or specified proposed findings or recommendations to which
objection is made.” Id. Where the petitioner has not objected, the Court reviews the R & R to
“only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.” Fed. R. Civ. P. 72 advisory committee’s note. In the absence of objections,
the Court need not give any explanation for adopting the Magistrate Judge’s analysis and

-2-

l:17-cv-02484-RMG

Date Filed 07/20/18

Entry Number 30

Page 3 of 5

recommendation. See, e.g., Camby v, Davis, 718 F.2d 198, 199 (4th Cir. 1983) (“In the absence
of objection ... we do not believe that it requires any explanation.”).
B.

Certificate of Appealability

28 U.S.C. § 2253 provides:
(c)(2) A certificate of appealability may issue ... only if the applicant has made a
substantial showing of the denial of a constitutional right.
(c)(3) The certificate of appealability . . . shall indicate which specific issue or
issues satisfy the showing required by paragraph (2).
A prisoner satisfies the standard by demonstrating that reasonable jurists would find this
Court’s assessment of his constitutional claims debatable or wrong and that any dispositive
procedural ruling by the district court is likewise debatable. See Miller-El v. Cockrell, 537 U.S.
322, 336 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000); Rose v. Lee, 252 F.3d 676, 683
(4th Cir. 2001).
III.

Discussion
Petitioner makes two objections to the R & R. To Ground One, Petitioner objects that the

R & R incorrectly finds Mr. Morrison’s affidavit failed to provide substantive testimony that
would have challenged the evidence because, in part, the R & R does not consider the extent to
which the state prosecution relied on forensic experts. (Dkt. No. 27 at 1-2.) To Ground Three,
Petitioner objects that the R & R incorrectly concludes Petitioner failed to present sufficient
evidence to show the trial judge’s refusal to allow evidence concerning Ms. Wilson and Mr.
Best’s relationship was unreasonable or contrary to federal law, because “Petitioner disagrees...
and believes that the trial court’s rejection of this evidence violated Petitioner’s right to present a
defense.” (Dkt. No. 27 at 2-3.)
The Court finds that the Magistrate Judge ably addressed the issues raised by Petitioner
and correctly concluded that Respondent is entitled to summary judgment. Regarding Ground
-3-

l:17-cv-02484-RMG

Date Filed 07/20/18

Entry Number 30

Page 4 of 5

One for federal habeas relief, Petitioner claims his trial counsel’s non-strategic decision not to
obtain indigent status funding of expert witnesses to opine on the handprint found on Ms.
Wilson’s shirt and ballistics constitutes ineffective assistance of counsel because his experts
could have undercut the prosecution’s forensic testimony. The Magistrate Judge correctly found
that the state court appropriately applied federal law by finding that Petitioner did not
demonstrate the Strickland standard of ineffective assistance of counsel, because Petitioner did
not offer evidence, including via Mr. Morrison’s affidavit, of what a defensive forensic expert
would have testified to and how that could have altered the trial. Similarly, the Magistrate Judge
appropriately found that Petitioner is procedurally barred from bringing Ground Two for relief
because he did not argue below that his counsel’s failure to object to a juror strike constituted
ineffective assistance. Likewise, Petitioner did not demonstrate the trial judge’s evidentiary
ruling was reversible error because the testimony excluded did not go to show that Ms. Wilson
could have been motivated to kill Mr. Best, in any event.
A Certificate of Appealability is not warranted. Reasonable jurists would not find it
debatable that Petitioner did not make a substantial showing that his constitutional rights were
denied.
IV.

Conclusion
For the foregoing reasons, the R & R of the Magistrate Judge (Dkt. No. 26) is

ADOPTED. Respondent’s motion for summary judgment (Dkt. No. 19) is GRANTED and a
Certificate of Appealability is DENIED.
AND IT IS SO ORDERED.

-4-

l:17-cv-02484-RMG

Date Filed 07/20/18

Entry Number 30

Page 5 of 5

Richard Mark Gergel
United States District Court Judge
July ^0,2018
Charleston, South Carolina

-5-

l:17-cv-02484-RMG

Date Filed 07/20/18

Entry Number 31

Page 1 of 1

AO 450 (SCD 04/2010) Judgment in a Civil Action
United States District Court
for the
District of South Carolina
Charles Nemon Vandross,
Petitioner

v.
Bryan Stirling, Commissioner, South Carolina
Department of Corrections, and Broad River
Correctional Institution,

)
)
)
)
.)

Civil Action No.

1:17-CV-02484-RMG

Respondent

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
□ the petitioner (name)
recover from the respondent (name) ________ the amount of________
dollars ($__), which includes prejudgment interest at the rate of
%, plus postjudgment interest at the rate of
____%, along with costs.
□ the petitioner recover nothing, the action be dismissed on the merits, and the respondent (name)
______ recover costs from the petitioner (name)__________________ .
■ other: Summary judgment is hereby entered for the respondent, Bryan Stirling, Commissioner, South
Carolina Department of Corrections, and Broad River Correctional Institution. The petitioner, Charles
Nemon Vandross, shall take nothing of the respondent and this action is dismissed with prejudice.

This action was (checkone):
□ tried by a jury, the Honorable
□ tried by the Honorable

presiding, and the jury has rendered a verdict.
presiding, without a jury and the above decision was reached.

■ decided by the Honorable Richard M. Gergel, United States District Judge, presiding, adopting the Report
and Recommendation of the Honorable Shiva V. Hodges, United States Magistrate Judge, which
recommended granting the respondent’s motion for summary judgment.

Date: July 20, 2018

ROBINL. BLUME, CLERK OF COURT
s/B. Goodman
Signature of Clerk or Deputy Clerk

FL
IN THE
SUPREME
CHARLES

COURT OF TEE UNITED STATE. 5

NEMDN VANOROSS

PETITIONER

VS

TKe united states court of appeals
FOR THE FOURTH

CIRCUIT

APPENDIX

RESPONDENT

D

USCA4 Appeal: 18-6916

Doc: 79

Filed: 02/24/2021

Pg: 1 of 1

FILED: February 24, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6916
(l:17-cv-02484-RMG)
CHARLES NEMON VANDROSS
Petitioner - Appellant
v.

BRYAN STIRLING, Commissioner, South Carolina Department of Corrections,
and Broad River Correctional Institution
Respondent - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Motz, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

APPEK)Di)(

§ D
J

Additional material
from this filing is
V

available in the
Clerk's Office.

